No. 20-1092

In the Supreme Court of the United States
BRANDON JONES, PETITIONER,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s Order of
April 15, 2020, all parties required to be served have been served with copies of the
foregoing REPLY BRIEF FOR THE PETITIONER, via e-mail, this 31st day of May
2021. All parties had previously consented to electronic service consistent with this Court’s
order of April 15, 2020.
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave., NW,
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
I declare under penalty of perjury the foregoing is true and correct. Executed on May 31,
2021.

/s John P. Elwood_____
John P. Elwood
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com
May 31, 2021

